         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Evaluation Report




       Region 4 Should Strengthen
       Oversight of Georgia’s
       Concentrated Animal Feeding
       Operation Program
       Report No. 11-P-0274

       June 23, 2011
Report Contributors:                                Dan Engelberg
                                                    Fred Light
                                                    Jayne Lilienfeld-Jones
                                                    Tim Roach




Abbreviations

CAFO           Concentrated Animal Feeding Operation
CMS            Compliance monitoring strategy
CWA            Clean Water Act
EPA            U.S. Environmental Protection Agency
GDA            Georgia Department of Agriculture
GEPD           Georgia Environmental Protection Division
OIG            Office of Inspector General
MOA            Memorandum of agreement
NMP            Nutrient management plan
NPDES          National Pollutant Discharge Elimination System


Cover photo:       From left: Hog confinement; a cattle feedlot. (EPA photos)




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:      OIG_Hotline@epa.gov                      write:   EPA Inspector General Hotline
  phone:       1-888-546-8740                                    1200 Pennsylvania Avenue NW
  fax:         703-347-8330                                      Mailcode 8431P (Room N-4330)
  online:      http://www.epa.gov/oig/hotline.htm                Washington, DC 20460
                       U.S. Environmental Protection Agency 	                                                11-P-0274
                                                                                                          June 23, 2011
                       Office of Inspector General


                       At a Glance
                                                                             Catalyst for Improving the Environment


Why We Did This Review               Region 4 Should Strengthen Oversight of
The Office of Inspector General
                                     Georgia’s Concentrated Animal Feeding
received a Hotline complaint         Operation Program
claiming that U.S.
Environmental Protection              What We Found
Agency (EPA) Region 4 was not
adequately overseeing Georgia’s      We found significant deficiencies in the Georgia Environmental Protection
Concentrated Animal Feeding          Division’s (GEPD’s) management and Region 4’s oversight of the CAFO
Operation (CAFO) program. In         program. Region 4 gave Georgia’s CAFO program a positive assessment
response, we evaluated EPA’s         because GEPD reported that all 48 of the CAFOs with liquid manure waste
management controls over             systems were inspected in 2010. However, our review identified a number of
Georgia’s National Pollutant         deficiencies for 34 of the 48 CAFOs Georgia inspected. CAFOs were operating
Discharge Elimination System         without NPDES permits or Nutrient Management Plans, inspection reports were
(NPDES) CAFO program.                missing required components, and the Georgia Department of Agriculture was
                                     not assessing compliance with permit conditions. For its part, Region 4 did not
Background                           assure that these components of Georgia’s CAFO program met the requirements
                                     outlined in the 2007 memorandum of agreement between Region 4 and GEPD.
The Clean Water Act (CWA)            As a result, there is a significant risk that the Georgia’s CAFO program is failing
prohibits the discharge of           to protect water quality. These facilities raise concerns about water quality
pollutants from any point source     because the animals produce large quantities of waste—many times more waste
to navigable waters of the           than humans annually. The discharge of waste into surface water is associated
United States unless authorized      with a range of human health and ecological impacts, and contributes to
under an NPDES permit issued         degradation of the nation’s surface waters.
by EPA or an authorized state.
The CWA defines CAFOs as              What We Recommend
point sources. A CAFO is a
facility where more than 1,000       We recommend that the Regional Administrator, EPA Region 4, implement
animal units are confined and        controls as stated in the 2007 memorandum of agreement between EPA
fed for a total of 45 days or more   Region 4 and GEPD to require enforcement data tracking between GEPD and
in any 12-month period.              Region 4, assure CAFO inspections are accurate and complete, and assure that
                                     GEPD takes timely and appropriate enforcement actions.

                                     The region agreed with our recommendation. We agree that its actions meet the
                                     intent of the recommendation.
For further information,
contact our Office of
Congressional, Public Affairs and
Management at (202) 566-2391.

The full report is at:
www.epa.gov/oig/reports/2011/
20110623-11-P-0274.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                THE INSPECTOR GENERAL



                                          June 23, 2011

MEMORANDUM

SUBJECT:	 Region 4 Should Strengthen Oversight of Georgia’s
          Concentrated Animal Feeding Operation Program
          Report No. 11-P-0274


FROM:	         Arthur A. Elkins, Jr.
               Inspector General

TO:	           Gwendolyn Keyes Fleming
               Regional Administrator, Region 4


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

The estimated direct labor and travel costs for this report are $266,614.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective actions plan for agreed-upon
actions, including milestone dates. Your response will be posted on the OIG’s public website,
along with our memorandum commenting on your response. Your response should be provided
as an Adobe PDF file that complies with the accessibility requirements of Section 508 of the
Rehabilitation Act of 1973, as amended. The final response should not contain data that you do
not want to be released to the public; if your response contains such data, you should identify the
data for redaction or removal. We have no objections to the further release of this report to the
public. We will post this report to our website at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Wade Najjum at
(202) 566-0832 or najjum.wade@epa.gov, or Dan Engelberg at (202) 566-0830 or
engelberg.dan@epa.gov.
Region 4 Should Strengthen Oversight of Georgia’s                                                                              11-P-0274
Concentrated Animal Feeding Operation Program


                                      Table of Contents 

   Purpose........................................................................................................................    1


   Background .................................................................................................................       1


           NPDES CAFO Permits and Inspection Process ..................................................                               1

           Georgia and EPA Region 4 Responsibilities for Implementing 

               NPDES CAFO Program ..............................................................................                      2     


   Scope and Methodology.............................................................................................                 3


   Results of Review .......................................................................................................          3


           CAFOs Operating Without Permits and Nutrient Management Plans ..................                                           4

           Inspection Reports Missing Required Components .............................................                               5

           GDA Not Assessing Compliance With Permit Conditions ....................................                                   6

           Region 4 Unaware of Deficiencies in Georgia CAFO Program ............................                                      7


   Conclusion...................................................................................................................      7


   Recommendation ........................................................................................................            8


   Agency Response and OIG Comment ......................................................................                             8


   Status of Recommendations and Potential Monetary Benefits..............................                                            9




Appendices
   A       Agency Response ..............................................................................................            10 


   B       Distribution .........................................................................................................    12 

Purpose
                 The U.S. Environmental Protection Agency (EPA), Office of Inspector General
                 (OIG), received a Hotline complaint alleging that EPA Region 4 was not
                 adequately overseeing Georgia’s Concentrated Animal Feeding Operation
                 (CAFO) program. In response, the OIG evaluated EPA’s management controls
                 over Georgia’s National Pollutant Discharge Elimination System (NPDES) CAFO
                 program.

Background
                 NPDES CAFO Permits and Inspection Process

                 The Clean Water Act (CWA) prohibits the discharge of pollutants from any point
                 source to a water of the United States unless authorized under an NPDES permit
                 issued by EPA or an authorized state. The CWA defines a CAFO as a point
                 source. A CAFO is a facility where animals1 are confined and fed for a total of
                 45 days or more in any 12-month period. An NPDES permit controls water
                 pollution by establishing limits on the types and amounts of pollution that can be
                 discharged into waterways. Unlike industrial point source facilities that are
                 permitted to discharge some waste to surface waters, CAFOs must not discharge
                 waste to surface waters, except in extraordinary circumstances. If a CAFO
                 discharges and has no permit, it is violating the CWA. According to 40 CFR
                 §122.23, NPDES permits are valid for a period of 5 years. To renew an NPDES
                 permit, a permittee may submit a renewal application no later than 6 months prior
                 to the expiration of their current permit.

                 As well as requiring CAFOs with a potential to discharge to obtain NPDES
                 permits, federal regulations require that CAFOs manage nutrients through a
                 nutrient management plan (NMP). An NMP is intended to manage nutrients
                 generated by animal manure and associated wastes. The NMP identifies, among
                 other things, appropriate site-specific conservation practices to be implemented
                 including, (1) protocols for land-applying manure, litter, and process wastewater;
                 (2) protocols for testing manure, process wastewater, and soils; (3) procedures for
                 spreading manure on cropland at site-specific rates to assure agricultural
                 utilization of nutrients; and (4) records showing how the operator is implementing
                 the NMP.

                 CAFO operators may be asked to provide NMPs, which are reviewed by
                 inspectors to determine compliance with the NPDES permit. In addition, a CAFO
                 is obliged to file an annual report with the state director. This report must include
                 the amount of animal waste generated for the year, the number of acres covered
1
 CAFOs are designated medium or large based on the type and threshold number of animals. For example, a large
CAFO could have at least 700 mature dairy cows or 2,500 swine (each over 55 pounds), while a medium CAFO
could have 200 to 699 mature dairy cows or 750 to 2,499 swine (each over 55 pounds).



11-P-0274                                                                                                       1
            by the NMP, where the manure was spread, and a summary of any discharges.
            Improper handling or management of nutrients may result in a runoff, which
            could pollute surface waters. In 2007, EPA issued a Clean Water Act National
            Pollutant Discharge Elimination System Compliance Monitoring Strategy for the Core
            Program and Wet Weather Sources (CMS) recommending that states inspect
            NPDES-permitted CAFOs at least once every 5 years to determine compliance
            with permit requirements. According to this strategy, EPA’s Office of
            Enforcement and Compliance Assurance (OECA) will evaluate whether the CMS
            is achieving the desired results.

            Georgia and EPA Region 4 Responsibilities for Implementing
            NPDES CAFO Program

            The CWA allows EPA to authorize states to operate an NPDES program if the state
            demonstrates the authority and capability to run the program, and if its
            environmental enforcement authorities are at least as stringent as those set out in
            federal law. 40 CFR 123.24 establishes the memorandum of agreement (MOA) as
            an instrument for ensuring that EPA and states adhere to the CWA. In 2007,
            Region 4 updated its MOA with the Georgia Department of Natural Resources,
            Environmental Protection Division (GEPD). The MOA establishes policies,
            responsibilities, and procedures for EPA and GEPD with respect to program
            management, permitting, monitoring, inspections, and enforcement. According to
            the MOA, Region 4 will oversee GEPD’s administration of the NPDES program
            on a continuing basis for consistency with the CWA and applicable federal and
            state laws and regulations. According to GEPD, Region 4 annually grants $4
            million to GEPD to operate its NPDES program.

            Under the MOA, GEPD is responsible for issuing NPDES permits and conducting
            enforcement actions for CAFOs. It issues general permits to non-swine CAFOs
            (dairy and poultry) and individual permits to swine CAFOs. A general permit has
            one set of requirements for a group of facilities, while an individual permit has
            specific requirements for an individual facility. GEPD reported that as of June
            2010, it issued 152 NPDES CAFO permits with another 658 NPDES CAFO
            permit applications still pending. Forty-eight of these permitted CAFOs have
            liquid manure systems (manure stored in lagoons or tanks in a liquid slurry state),
            which have a potential to discharge into surface waters. These 48 CAFOs are
            inspected annually. The MOA requires GEPD to “comprehensively assess
            compliance with permit conditions,” and to take “timely and appropriate
            enforcement actions.” GEPD told us that they use about $270,000 of the $4
            million annual grant from EPA to operate their CAFO permit and enforcement
            program.

            GEPD contracts with the Georgia Department of Agriculture (GDA) to carry out
            most of its NPDES CAFO oversight responsibilities. GDA reviews permit
            applications, approves NMPs, and conducts CAFO inspections. However, GDA
            has no enforcement authority; this authority remains with GEPD.



11-P-0274                                                                                         2
Scope and Methodology
            The OIG evaluated EPA’s management controls over Georgia’s NPDES CAFO
            program in response to a Hotline complaint in the form of an anonymous letter on
            October 1, 2010, which claimed that EPA Region 4 was not adequately
            overseeing Georgia’s CAFO program.

            To determine whether EPA provides adequate oversight of the NPDES CAFO
            program in Georgia, we conducted interviews with staff and managers from EPA
            Region 4’s Water Protection Division, GEPD, and GDA. We also reviewed the
            2010 NPDES inspection reports for all 48 CAFOs with liquid waste systems in
            Georgia. We sought to determine whether inspectors gathered and reviewed
            inspection components necessary to determine if CAFOs were overapplying
            manure. These components include records of land application rates and evidence
            to verify that inspectors compared land application rates with the CAFO’s NMP.
            When records were available, we compared land application rates with the NMP
            to determine whether CAFOs may have overapplied manure.

            We conducted our review from November 2010 to April 2011 in accordance with
            generally accepted government auditing standards. Those standards require that
            we plan and perform our review to obtain sufficient, appropriate evidence to
            provide a reasonable basis for our findings and conclusions based on our
            objectives. We believe that the evidence obtained provides a reasonable basis for
            our findings and conclusions based on our objectives.

Results of Review
            We found significant deficiencies in GEPD’s management and Region 4’s
            oversight of the CAFO program. Region 4 gave Georgia’s CAFO program a
            positive assessment because GEPD reported that all 48 of the CAFOs with liquid
            manure waste systems were inspected in 2010. However, our review identified a
            number of deficiencies for 34 of the 48 CAFOs Georgia inspected. CAFOs were
            operating without NPDES permits or NMPs, inspection reports were missing
            required components, and GDA was not assessing compliance with permit
            conditions. For its part, Region 4 did not assure that these components of
            Georgia’s CAFO program met the requirements outlined in the 2007 MOA
            between Region 4 and GEPD. As a result, there is a significant risk that Georgia’s
            CAFO program is failing to protect water quality. These facilities raise concerns
            about water quality because animals produce large quantities of waste—many
            times more waste than humans annually. The discharge of waste into surface
            water is associated with a range of human health and ecological impacts, and
            contributes to degradation of the nation’s surface waters.




11-P-0274                                                                                    3
            CAFOs Operating Without Permits and Nutrient Management Plans

            Our review of GDA’s CAFO files found nine CAFOs operating in violation of the
            CWA. Of these nine CAFOs, six were operating without an NPDES permit, and
            five did not have approved NMPs. Two CAFOs had neither a permit nor an NMP.
            Federal regulations require a CAFO that discharges or proposes to discharge to
            obtain an NPDES permit and to manage its animal waste through an approved
            NMP. GEPD’s Industrial Compliance Unit Manager said he was unaware of these
            deficiencies.

            We identified six CAFOs operating without an NPDES permit. The MOA
            requires GEPD to process in a timely manner and propose to issue, reissue,
            modify, terminate, or deny NPDES permits. While GEPD contracts with GDA to
            review NPDES permit applications and NMPs, it did not manage the contract to
            verify that CAFOs had the proper permits. Four of these six CAFOs were
            operating with general permits that expired in 2007. These four should have
            applied for a permit extension but the GDA supervisor stated that these CAFOs
            have not applied for an extension. GEPD’s Industrial Compliance Unit Manager
            told us that he was unaware that CAFOs had not applied for permit extensions.

            The other two CAFOs without permits were swine operations that wanted to
            expand to more than 2,500 swine. NPDES regulations require CAFOs with more
            than 2,500 swine each weighing 55 pounds or more to obtain an individual
            NPDES permit. According to the GDA supervisor, the CAFOs applied for
            NPDES permits in 2004 and 2007, but GEPD did not issue the permits. GEPD’s
            Industrial Compliance Unit Manager informed us that at the time, permit
            applications for new or expanding swine operations were tabled until final rules
            were adopted. He told the two CAFO operators to remain under 2,500 swine but
            issued no formal notices to do so. However, our review of GDA’s inspection
            reports found evidence these CAFOs have more than 2,500 swine. GEPD’s
            Industrial Compliance Unit Manager told us he was unaware of this.

            We also identified that five of the nine CAFOs were operating without an
            approved NMP. Georgia’s NPDES permits for CAFOs require an approved NMP.
            While GEPD contracts with GDA to review and approve NMPs, it did not
            manage the contract to verify that all CAFOs have NMPs. Four of these five
            CAFOs submitted NMPs to GDA for approval, but GDA rejected them because
            they did not satisfy the NMP guidelines, according to the GDA supervisor. The
            remaining CAFO never submitted an NMP to GDA, according to the GDA
            supervisor. GEPD’s Industrial Compliance Unit Manager told us that he was not
            aware that these CAFOs were operating without approved NMPs. Based on our
            review, GEPD and GDA began modifying a number of procedures and are
            evaluating why CAFOs are operating without approved NMPs.




11-P-0274                                                                                      4
               Inspection Reports Missing Required Components

               Our analysis of the CAFO inspection reports prepared by GDA found that some
               components required for the inspection were missing. The NPDES permit
               requires that items such as land application data, soil samples, and wastewater
               analysis be completed and made available during an inspection. While GDA
               conducts the inspections for GEPD, it has no enforcement authority to compel
               CAFOs to submit required components for those inspections. According to the
               GDA supervisor, GDA inspectors can only request that CAFO operators send the
               missing records or documents to GDA or GEPD. We found no documentation in
               the inspection reports to demonstrate that GEPD took any actions to collect this
               information. Of the 48 inspections we reviewed, 23 were missing at least one
               required component, including 12 CAFOs missing at least one of the 8 key
               components we deemed necessary for determining compliance with the NPDES
               permit (table 1). The remaining 25 inspection reports contained necessary
               components to determine if CAFOs were overapplying manure.

     Table 1: CAFO inspections missing required components
                                                                              Number of inspections
                                                                                missing required
                    Components required by permit or NMP                          components
      Land application records                                                         7
      Wastewater analysis to determine nutrient levels                                 6
      Soil analysis to determine ambient nutrient levels                               1
      Calibration tests for application equipment                                      8
      Monitoring well tests to ensure that storage lagoons are not impaired            2
      Monitoring wells locations on NMP                                                8
      Operator certification                                                           3
      Annual report on facility operations                                             1
     Source: OIG analysis of GDA inspection reports.

               We identified 23 inspection reports that were missing components required for a
               complete NPDES permit inspection. For example, seven of the inspection reports
               did not contain land application documentation. This documentation includes the
               rate of land application, crops, location, and methods used for the application. In
               addition, six inspection reports did not have a wastewater analysis and one
               inspection report did not have a soil analysis. In our opinion, the land application
               records, wastewater analysis, and soil analysis are critical to assessing compliance
               with the NPDES permit. At least one of these components was missing in 12 of
               the inspection reports we reviewed.

               GEPD contracts with GDA to conduct these inspections and obtain the
               components required for a complete NPDES inspection and compliance analysis.
               In our opinion, these state agencies must communicate to ensure that Georgia
               CAFOs meet NPDES permit requirements. Based on our review, GEPD and GDA


11-P-0274                                                                                             5
            have begun modifying a number of procedures. For example, according to the
            GEPD unit manager, GDA is developing a new method of transmitting and
            communicating inspection reports to GEPD district offices. This new method
            includes a transmittal form that highlights the significant issues documented
            during the inspection and whether GEPD followup is recommended.

            GDA Not Assessing Compliance With Permit Conditions

            A critical aspect of CAFO inspections is comparing actual against allowable
            manure application rates. Overapplying manure can lead to excess manure runoff
            in neighboring streams. However, according to the GDA supervisor, GDA did not
            determine compliance with permit conditions by comparing manure application
            rates to the NMPs. Of the 48 inspection reports we reviewed, 22 contained both
            land application records and current NMPs. We analyzed the records for these 22
            CAFOs and identified six that may have overapplied nutrients (table 2). The
            contract between GEPD and GDA states that GDA will assure compliance with
            applicable water quality rules, regulations, and permits, but GEPD’s Industrial
            Compliance Unit Manager told us he did not know that GDA was not making this
            comparison.

            Table 2: Comparison of land application rates to NMPs
                                                          Actual land         NMP
                                                        application rate   allowance   Overage
              CAFO           Type          Acres       for 2010 lbs/acre    lbs/acre   lbs/acre
                 1          Poultry            6.6                   567         415        152
                                              17.4                   536         415        121
                                               9.7                   614         415        199
                                              13.1                   772         415        357
                 2           Dairy              85                   714         470        244
                 3           Dairy              34                   556         100        456
                 4           Dairy             9.3                   457         393         64
                 5           Dairy             130                15,326         200     15,126
                 6           Dairy              32                   836         303        533
            Source: OIG analysis of GDA inspection reports.

            Based on our analysis of the inspection reports with an NMP and land application
            records, 16 CAFOs appear to be complying with manure application rates in their
            NMPs. The remaining six CAFOs reported applying manure in excess of the
            recommended amounts in their NMPs. The reported overapplication ranged from
            64 pounds per acre to what appears to be an error with 15,126 pounds per acre.

            Region 4’s MOA requires GEPD to “comprehensively assess compliance with
            permit conditions.” GEPD contracts this function to GDA. The contract specifies
            that GDA will conduct inspections of swine and non-swine feeding operations


11-P-0274                                                                                         6
            with NPDES permits to assure compliance with the Federal Water Pollution
            Control Act (Clean Water Act) and the Georgia Rules and Regulations for Water
            Quality Control. The current GDA inspection supervisor told us that the previous
            GDA supervisor had never required inspectors to conduct this comparison. The
            contract with GDA also states that GEPD will review and evaluate GDA’s
            program at least every 12 months to ensure the program is satisfying relevant state
            and federal water quality requirements. In our opinion, GEPD was not adequately
            overseeing the GDA’s CAFO inspection program because this deficiency should
            have been identified and corrected.

            Region 4 Unaware of Deficiencies in Georgia CAFO Program

            While Region 4 accepted and reported to EPA headquarters that GEPD had
            exceeded its CMS goal of inspecting CAFOs at least once every 5 years, the
            Region 4 Acting Water Protection Division Director and his staff told us that they
            were unaware of the critical deficiencies we identified. Under the MOA, Region 4
            is responsible for verifying that GEPD administers the NPDES program for
            consistency with the CWA. Our review found deficiencies in 34 of the 48 CAFO
            inspection reports completed in 2010. We discussed these problems with Region
            4’s Acting Water Protection Division Director and his staff. They were unaware
            of any of the problems we found in our review.

            In addition, the MOA requires GEPD to take timely and appropriate enforcement
            actions for violations. While GEPD reported taking some action for the CAFOs in
            2010, it did not report the results to Region 4. Since the region has not obtained
            enforcement data from GEPD, it cannot determine whether GEPD takes timely and
            appropriate enforcement actions.

            Finally, in 2006 and 2007, Region 4 conducted CAFO inspections in Georgia and
            found two CAFOs with deficiencies similar to those we identified. However, the
            region apparently did not use the information from its experience to change its
            oversight activities to gain assurance that the CAFO program was functioning as
            intended.

Conclusion
            Significant weaknesses in the management of Georgia’s CAFO program threaten
            water quality protections in that state. GEPD was not managing its contract with
            GDA and, as a result, CAFO inspections were not complete. Region 4 had not
            implemented management controls to assure GEPD’s permit inspection and
            enforcement programs addressed compliance problems with Georgia’s CAFOs.
            Based upon our analysis of Georgia’s inspection records, OECA’s 2007 CMS
            inspection goals present a misleading picture of the status of the state’s program.
            Georgia and Region 4 reported a 100 percent inspection rate for CAFOs with
            liquid waste management systems, but almost half of these inspection reports
            were missing information. As a result of inadequate oversight and reporting,


11-P-0274                                                                                         7
            Georgia’s waters are vulnerable to discharges of animal waste from CAFOs,
            which are associated with a range of human health and ecological impacts, and
            contribute to degradation of the nation’s surface waters.

Recommendation
            We recommend that the Regional Administrator, EPA Region 4:

               1. Implement controls between EPA Region 4 and GEPD to:

                      a.	 Require enforcement data tracking between GEPD and Region 4.
                      b.	 Assure CAFO inspections are accurate and complete.
                      c.	 Assure that GEPD takes timely and appropriate enforcement
                          actions.

Agency Response and OIG Comment
            The region agreed with our recommendation. We agree that the region’s actions
            meet the intent of the recommendation. We provided Region 4 information
            regarding the CAFO cases we reviewed. The Agency’s full response is in
            Appendix A.




11-P-0274                                                                                   8
                              Status of Recommendations and
                                Potential Monetary Benefits

                                                                                                                     POTENTIAL MONETARY
                                                RECOMMENDATIONS                                                       BENEFITS (in $000s)

                                                                                                         Planned
 Rec.     Page                                                                                          Completion   Claimed    Agreed-To
 No.       No.                        Subject                       Status1      Action Official           Date      Amount      Amount

   1        8          Implement controls between EPA Region 4           O    Regional Administrator,
                       and GEPD to:                                                 Region 4
                          a. Require enforcement data tracking
                             between GEPD and Region 4.
                          b. Assure CAFO inspections are accurate
                             and complete.
                          c. Assure that GEPD takes timely and
                             appropriate enforcement actions.




1 O = recommendation is open with agreed-to corrective actions pending
  C = recommendation is closed with all agreed-to actions completed
  U = recommendation is undecided with resolution efforts in progress




11-P-0274                                                                                                                                   9
                                                                                   Appendix A

                                Agency Response

                                         May 27, 2011



MEMORANDUM

SUBJECT:       Draft Report: Region 4 Should Strengthen Oversight of Georgia’s Concentrated
               Animal Feeding Operation Program; Office of Inspector General Project No.
               OPE-FY11-0004

FROM:          Gwendolyn Keyes Fleming
               Regional Administrator

TO:            Dan Engelberg
               Director of Program Evaluation
               Water and Enforcement Issues
               Office of Inspector General

This is in response to your memorandum to me dated May 6, 2011, regarding an Office of
Inspector General draft report containing the results of your review of Region 4's oversight of
Georgia’s National Pollutant Discharge Elimination System (NPDES) Concentrated Animal
Feeding Operation (CAFO) program. The ever-evolving CAFO-related case law significantly
impacts the permitting requirements governing CAFOs and smaller animal feeding operations
(AFOs). If available, Region 4 would like any specifics collected on the 48 CAFO inspections.
Nevertheless, the Region generally concurs with the recommendations made in your report.

Below are the recommendations from the draft report with our responses:

   1.	 OIG Recommendation: Require enforcement data tracking between Georgia
       Environmental Protection Division (GAEPD) and Region 4.

   EPA Response: We concur. When reporting for the 106 Workplan before FY 2011, Georgia
   has sent summary statistics to the EPA regarding the number of inspections they conducted
   each fiscal year. For the FY 2011 106 Workplan, we have required GAEPD to “submit hard
   or electronic copies of all CAFO/AFO formal actions.” For NPDES-permitted CAFOs, the
   EPA requires GAEPD to enter facility information, inspections, and enforcement actions
   related to the facility into the EPA’s Integrated Compliance Information System (ICIS). Most
   CAFOs, however, are not NPDES permitted and not tracked in ICIS because the 2008 Rule
   does not require CAFOs to obtain permits if they claim no discharge.




11-P-0274                                                                                         10
   2.	 OIG Recommendation: Assure CAFO inspections are accurate and complete.

   EPA Response: We concur. During the remainder of FY2011, the EPA Region 4 will
   conduct two or three joint CAFO inspections with the Georgia Department of Agriculture
   and GAEPD to share information and to verify that their inspections are accurate and
   complete. We will also conduct routine reviews of CAFO inspection reports and files as part
   of our normal oversight of the state.


   3.	 OIG recommendation: Assure that GAEPD takes timely and appropriate enforcement
       actions.

    EPA Response: We concur. In our routine annual oversight of Georgia’s CAFO enforcement
   program, we have not found evidence of a significant concern related to timely and
   appropriate enforcement actions. Region 4 will review GAEPD’s formal CAFO/AFO
   enforcement actions, which they are required to submit according to the FY 2011 106
   Workplan, to ensure that the inspections are accurate and complete, and that the actions are
   timely and appropriate.

Thank you for the opportunity to comment on this draft report. Please contact Mr. Jim Giattina,
Director of the Water Protection Division, at Giattina.Jim@epa.gov or at (404) 562-9345, if you
have any questions about our response.




11-P-0274                                                                                    11
                                                                            Appendix B

                                    Distribution
Office of the Administrator
Regional Administrator, Region 4
Assistant Administrator for Water
Agency Followup Official (the CFO)
Agency Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Director, Office of Regional Operations
Audit Followup Coordinator, Region 4
Director, Water Protection Division, Region 4




11-P-0274                                                                           12
